Board of Governors of the Federal Reserve System




     AUDIT OF THE BOARD’S
INFORMATION SECURITY PROGRAM




  OFFICE OF INSPECTOR GENERAL


                                           November 2009
                                       November 17, 2009


Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Members of the Board:

      The Office of Inspector General is pleased to present its report on the Audit of the Board’s
Information Security Program. We performed this audit pursuant to requirements in the Federal
Information Security Management Act (FISMA), Title III, Public Law 107-347 (December 17,
2002), which requires each agency Inspector General (IG) to conduct an annual independent
evaluation of the agency’s information security program and practices. Our specific audit
objectives, based on the legislation’s requirements, were to evaluate the effectiveness of security
controls and techniques for selected information systems and compliance by the Board of
Governors of the Federal Reserve System (Board) with FISMA and related information security
policies, procedures, standards, and guidelines. As part of our review, we also followed up on
the status of the Board’s corrective actions in response to open recommendations from our prior
FISMA reports and security control reviews of specific systems. We conducted our audit of the
Board’s compliance with FISMA from April 2009 through October 2009, and reviewed security
controls for Board applications throughout the year, in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

      Overall, we found that the Board’s Information Security Officer (ISO) continues to
maintain a FISMA-compliant approach to the Board’s information security program. The
Board’s inventory has remained stable from 2008. Based on our prior recommendations, the ISO
has allocated additional resources to the Division of Information Technology’s (IT’s) Security
Compliance unit and implemented an improved approach to security assessments that includes
independent testing. In addition, the ISO continues to issue and update information security
policies and guidelines, and has started to develop security metrics to measure security
performance and compliance. The Board continues to emphasize information security awareness
by offering additional automated presentations that highlight potential vulnerabilities, and
posting awareness reminders throughout Board buildings.

      During this year’s FISMA review, we followed up on the status of corrective actions in
response to open recommendations from our prior FISMA reports and security control reviews.
As discussed in appendix 1, we determined that the Board’s corrective actions are sufficient to
close out two of three open recommendations from our prior FISMA reports. The third
Members of the Board                          2 of 22                   November 17, 2009

recommendation was to ensure that risk assessments adequately identify, evaluate, and document
the risks to an information system based on potential threats, vulnerabilities, and controls. The
ISO has developed a Supplemental Controls Questionnaire to assist system owners in
determining whether additional controls are needed. However, our detailed review of selected
risk assessments showed that system owners can improve in identifying, evaluating, and
documenting potential system vulnerabilities, the associated level of risk, and the need for
additional controls to address these risks. The ISO has plans to further enhance the risk
assessment process, and we will keep this recommendation open as we monitor the
implementation of these enhancements. In following up on the Board’s actions in response to
our prior security control reviews, we determined that sufficient actions have been taken to close
fifty-seven of sixty-one open recommendations. We will continue to monitor the Board’s actions
on the remaining open recommendations.

      To further enhance the Board’s information security program, this report includes the
following four recommendations to the Chief Information Officer (CIO): (1) ensure all systems
have updated security plans; (2) test select critical controls within the IT general support system
(GSS) annually; (3) independently verify that appropriate corrective action has been
implemented before items are removed from the Board’s Plan of Action and Milestones
(POA&M); and (4) provide mandatory FISMA training to selected staff with FISMA
responsibilities. Appendix 1 contains our analysis of the Board’s progress in implementing key
FISMA requirements and discusses each of these recommendations in more detail.

       As stated previously, we review security controls implemented for Board applications on
an ongoing basis. During the past year, we reviewed security controls for three systems: (1) the
Board’s Electronic Security System; (2) the Board’s Lotus Notes and Lotus Domino
infrastructure, which is a component of the Board’s GSS supported by IT; and (3) a third-party
application operated by the Federal Reserve Bank of New York in support of the Board’s
Division of Monetary Affairs. We also conducted reviews of audit logging controls provided for
a number of Board systems and by the IT GSS, and the Board’s POA&M program and
processes. We reviewed components of the Board’s certification and accreditation (C&A)
process, including risk assessments, security plans, and security assessments. Our reviews of
Board applications’ information security controls identified areas where controls need to be
strengthened but, given the sensitivity of the issues involved with these reviews, we are
providing the specific results to management in separate restricted reports. We performed our
application control testing based on selected controls identified in National Institute of Standards
and Technology (NIST) Special Publication 800-53, Revision 2, Recommended Security
Controls for Federal Information Systems (SP 800-53). The controls are divided into “families”
(such as access, risk assessment, and personnel security) and include controls that can be
categorized as system-specific or common (applicable across agency systems). Consequently,
although our focus was on evaluating specific applications, we also assessed some of the
common security controls that affect most, if not all, of the applications.

      As part of agencies’ annual FISMA reporting, the Office of Management and Budget
(OMB) requested that both the CIO and the IG provide responses to certain security-related
questions. To address OMB’s security-related questions, our FISMA review included an
analysis of the Board’s security-related processes for security awareness and training, system
Members of the Board                                 3 of 22                       November 17, 2009

inventory, remedial action monitoring, incident reporting, configuration management, controls
over personally identifiable information (PII), and privacy impact assessments (PIA). 1 In
addition to this report, we will respond to OMB’s questions under separate cover via automated
submission (our response will be submitted with the CIO’s response to the OMB questions).

      We provided a draft of our report to the Director of IT, in her capacity as the CIO for
FISMA, for review and comment. Her response is included as appendix 2. In her response, the
director agreed with recommendations 2 and 3, and generally agreed with recommendations 1
and 4. The director stated that additional program enhancements are planned for the next two
years that will address most of the key improvement opportunities highlighted in our report. We
will follow up on actions taken regarding our recommendations as part of future audit and
evaluation work related to information security.

      We appreciate the cooperation that we received from the Board during our review. The
principal contributors to this report are listed in appendix 3. We are providing copies of this
audit report to Board management officials. The report will be added to our publicly-available
web site and will be summarized in our next semiannual report to the Congress. Please contact
me if you would like to discuss the audit report or any related issues.

                                                   Sincerely,



                                            Elizabeth A. Coleman
                                              Inspector General

cc:   Mr. Stephen Malphrus
      Ms. Maureen Hannan
      Mr. Geary Cunningham
      Mr. Raymond Romero




      1
        Our answers to the OMB questions regarding controls over PII and PIA are not included in this report, since
they are not requirements of FISMA. However, PII and PIA are addressed in our response to OMB.
APPENDIXES
                                                                                  APPENDIX 1


The Office of Inspector Gener al’s Analysis of the Boar d’s Pr ogr ess in
Implementing Key FISMA and OMB Requir ements

The following is our analysis of the Board’s progress in implementing key FISMA requirements,
including progress to date and work to be done. Our analysis identified four recommendations,
contained on pages 12, 14, 15, and 17.

Policies and Procedures

       Requirement:
             Information security policy is an essential component of an information security
             program. An agency’s information security policies should be based on a
             combination of relevant legislation, such as FISMA; applicable standards, such as
             NIST Federal Information Processing Standards and guidance; and internal
             agency requirements. Supporting guidance and procedures on how to implement
             specific controls effectively across the enterprise should be developed to augment
             an agency’s security policy. To ensure that information security policies do not
             become obsolete, agencies should implement a review and revision process for
             their policies and procedures.

       Progress to Date:
             The ISO and his staff continue to issue new and updated information security
             guidance and procedures. During this past year, the ISO updated the Board’s
             information classification and handling guide and issued policy on international
             travel with mobile devices and media disposal and sanitation. To assist system
             owners with their annual system reviews, the ISO developed FISMA process
             review checklists that identify the key courses of action necessary to complete the
             applicable review. Checklist selections are applied based on whether the system
             is major or minor; the system is a GSS subsystem; or a full C&A is to be
             performed for the system. Each checklist walks the system reviewer through the
             control baseline, system security plan, and risk assessment processes.

              In addition, guidance to determine the minimum audit logging requirements for a
              Board system was issued in early 2009. The guidance contains attachments that
              address data access log requirements, infrastructure log review risk analysis, and
              application log review risk analysis. The ISO also updated the Board’s access
              control and authentication standard to address revised password policy.

       Work To Be Done:
            Agencies have a continual need to update and refine their information security
            program and related policies and procedures as the program evolves and as NIST
            and OMB issue new guidance. In August 2009, NIST issued an updated version
            of SP 800-53, which contains new requirements to be implemented, and has
            issued a draft of SP 800-37, Guide for Security Authorization of Federal


                                            7 of 22
                                                                                 APPENDIX 1


             Information Systems: A Security Lifecycle Approach, which, when issued, will
             also establish new requirements.

             The ISO has responded appropriately in the past to OMB and NIST changes to
             FISMA requirements, as well as OIG audit analysis and findings, and has formed
             work groups that include officers and managers from IT who represent
             infrastructure and application development to assist with the review and revision
             of IT security policies to incorporate new guidance. We will continue to review
             the need for additional guidance as part of our ongoing work related to
             information security.


Application Inventory

      Requirement:
            FISMA requires the head of each agency to develop and maintain an inventory of
            major information systems operated by or under the control of the agency. The
            inventory forms the basis for meeting the FISMA periodic testing requirement.
            The inventory should also identify system criticality and risk levels. OMB’s
            annual FISMA reporting questions require agency IGs to determine if the
            inventory of major systems is materially correct; the IG agrees with the total
            number of reported systems, including those operated on behalf of the agency;
            and the inventory is updated annually.

      Progress to Date:
            The Board’s FISMA inventory has remained stable over the past year. The ISO
            has reported that all major applications and GSSs have been certified and
            accredited, including those operated on behalf of the agency. The Board
            continues to refine how it accounts for the C&A of minor applications and
            subsystems. During the past year, the Board has continued to focus on refining
            the bundling of minor applications and subsystems into the security plans of a
            GSS, a major application that provides a significant portion of its security control
            requirements, or other minor applications to form a single major application. In
            addition, the ISO has continued to provide training to system owners who make
            the final determination of whether their minor application will be bundled or stand
            alone.

      Work To Be Done:
           The Board’s third party applications are primarily located within the Federal
           Reserve Banks. Although the Federal Reserve System (System) maintains its
           own information security program, systems that process and store Board
           information are to be certified and accredited in accordance with the Board’s
           information security program. Our security control reviews identified control
           weaknesses related to systems operating within infrastructures that were not
           certified and accredited in accordance with the Board’s information security
           program. However, during the past year the Reserve Banks established plans to

                                           8 of 22
                                                                                  APPENDIX 1


             implement an enterprise information security program based on the NIST
             framework. The Reserve Banks plan to transition over a four-year period and
             have started to train their staffs on the new NIST compliant security program. In
             addition, the ISO has coordinated through the Division of Banking Supervision
             and Regulation (BS&R) to ensure BS&R applications maintained within the
             Reserve Banks that process and store Board information complied with the
             Board’s information security program. During the past year, the ISO and BS&R
             conducted a review of controls provided by the System’s Groupware Leadership
             Center (GLC). The GLC is one of the Federal Reserve System’s National
             Information Technology Operator competency centers responsible for the
             planning, implementation, and functional enhancement of the System’s electronic
             mail and collaborative computing services.

             Our 2005 FISMA audit report contained a recommendation that the Board
             establish full-time, independent CIO and ISO positions that have the authority to
             direct and enforce FISMA compliance for all information and information
             systems that support Board operations and assets, including those provided by the
             Reserve Banks and other third parties. Based on the Board’s progress in
             designating the CIO and ISO positions for FISMA, and the CIO’s and ISO’s
             actions in ensuring FISMA compliance of systems throughout the Board and
             applicable Reserve Bank systems, we are closing this recommendation. As part
             of our ongoing work related to information security we will continue to monitor
             the CIO’s and ISO’s actions in overseeing the Reserve Banks’ compliance with
             FISMA as they transition to an information security program based on the NIST
             framework.


Periodic Risk Assessments

      Requirement:
            FISMA requires periodic assessments of the risk and magnitude of the harm that
            could result from the unauthorized access, use, disclosure, disruption,
            modification, or destruction of information and information systems that support
            the operations and assets of the agency. OMB’s annual FISMA reporting
            questions take risk assessments into consideration as part of the overall qualitative
            assessment of the C&A process and direct agencies to follow applicable NIST
            guidance.

      Progress to Date:
            As part of the Board’s information security program, the ISO has developed a
            Risk Assessment Template and a Risk Assessment Guide intended to provide a
            systematic approach that permits information system owners to determine the
            extent of potential threats and risks associated with their information systems.
            The information system owner must complete a risk assessment for each of
            his/her systems, regardless of whether each is categorized as a GSS, a major
            application, a standalone minor application, or a subsystem to any of these

                                            9 of 22
                                                                               APPENDIX 1


       categories. During this past year, the ISO developed a Supplemental Controls
       Questionnaire to assist system owners in determining which NIST SP 800-53
       controls that are listed as optional or intended for systems that are risk classified
       as high may be used to mitigate a unique system risk or satisfy a unique system
       requirement.

       The Risk Assessment Guide assists an information system owner in determining
       what additional controls need to be implemented to decrease the information
       system’s exposure to risk and in setting priorities for implementing the necessary
       additional new controls. The system owner documents the risk assessment that is
       performed using the Risk Assessment Template, which serves as a report of the
       results of the risk assessment for the information system. The template covers a
       number of areas, such as determining a security impact level, identifying the
       system technical components and users, listing known vulnerabilities, identifying
       controls that can minimize the vulnerabilities, and identifying any residual risk
       that is remaining after the controls are implemented. Finally, for risks that the
       system owner has decided to accept, the template is used to document the decision
       and its justification.

Work To Be Done:
     Our 2008 FISMA audit report contained a recommendation that the CIO ensure
     that risk assessments are adequately identifying, evaluating, and documenting the
     level of risk to information systems based on potential threats, vulnerabilities, and
     currently implemented or planned controls, to determine whether additional
     controls are needed. While system owners were documenting that their systems
     met minimum controls, the security control baselines did not address what
     additional controls may be needed to protect against potential threats. As a result,
     the ISO agreed to work closely with system owners to ensure risk assessments
     effectively identify and more fully address additional risks.

       Although the ISO developed a Supplemental Controls Questionnaire to assist
       system owners in determining whether additional controls are needed, we
       continue to find that system owners can improve their identification, evaluation,
       and documentation of the level of risk to information systems based on potential
       threats, vulnerabilities, and currently implemented or planned controls. Going
       forward, the ISO plans to utilize relevant NIST publications, such as SP 800-30,
       Risk Management Guide for Information Technology Systems, and SP 800-39,
       Managing Risks from Information Systems: An Organizational Perspective, once
       they are issued by NIST, to update the Board’s risk assessment process. In
       addition, the ISO is reviewing automated tools to provide a structured approach
       and a more thorough risk assessment. We will keep the above mentioned
       recommendation open as we continue to monitor the CIO’s and ISO’s actions in
       overseeing the planned enhancements to the risk assessment process.




                                      10 of 22
                                                                                  APPENDIX 1


Security Plans

      Requirement:
            FISMA requires that agencies develop security plans for each system in their
            inventories. A system security plan should be based on the agency-wide plan,
            provide an overview of the system’s specific security requirements, and describe
            the controls in place or planned for meeting those requirements. A system
            security plan should delineate the responsibilities, expected behavior, and training
            requirements for all individuals who access the system and describe appropriate
            controls for interconnection with other systems. OMB’s annual FISMA reporting
            questions include security plans as part of the overall qualitative assessment of the
            C&A process and direct agencies to follow applicable NIST guidance.

      Progress to Date:
            The Board’s information security program requires the system owner to develop a
            security plan based on the complete set of controls required for the system (i.e.,
            the baseline controls and any additional controls identified during the risk
            assessment process). To assist system owners, the ISO has developed security
            plan templates for major applications, general support systems, and standalone
            minor applications. An official System Security Plan Approval form is included
            in the security plan and, by signing it, the system owner is stating that the owner
            has reviewed the security plan and that the owner believes the security plan
            accurately and completely describes the security of the system. Approval of a
            security plan signifies approval of all documents referenced by the security plan
            and the baseline of security controls. A bundled subsystem security plan requires
            system owners to attest that all security controls provided by the baseline of
            controls have been reviewed to determine that the subsystem relies upon the
            provided GSS or major application security controls, and that the controls satisfy
            all subsystem control requirements with the exception of any other specific
            controls documented.

             We reviewed security plans as part of our three control reviews, and as part of our
             review of the Board’s C&A process we reviewed security plans for two GSSs that
             had bundled subsystems and four major applications. We found each of the
             system owners of the major applications had developed security plans, and the
             subsystems that had been bundled into a GSS had a bundled subsystem security
             plan completed.

      Work To Be Done:
           All Board information systems must be supported by a system security plan
           categorized as a major application, a minor application, or a general support
           system. The information system owner is responsible for the development and
           maintenance of a system security plan. Security plans must be reviewed annually.
           However, we found security plans that had not been updated and that referenced
           obsolete software versions and outdated security settings.



                                           11 of 22
                                                                                   APPENDIX 1


             The Board’s information security program requires security plans to include
             system environment descriptions and diagrams of the system environment.
             However, our review of security plans found only limited descriptions and
             diagrams. In our 2008 FISMA audit report, we identified opportunities for the
             ISO to enhance security plans by including technical details for the servers that
             could affect a specific application. This enhancement would allow system owners
             to understand the risks and mitigating factors of certain design architectures and
             identify the software packages installed on the servers supporting their
             applications.

             Full implementation of the security planning process will not occur until all plans
             provide an overview of the systems’ specific security requirements and describe
             the controls in place or planned for meeting those requirements. The certification
             process includes having an independent certification agent review the security
             plan and test existing controls to ensure the controls provide the required level of
             security. If the control baseline and risk assessment are inadequate or outdated,
             the security plan will not fully describe the system’s security environment or
             identify other needed controls. Controls missed in the baseline flow through the
             risk assessment and into the security plan.

             Recommendation 1: We recommend that the CIO ensure all systems have
                               updated security plans that include all requirements, as part
                               of implementing the new risk assessment process.


Periodic Testing and Evaluation

      Requirement:
            FISMA requires periodic testing and evaluation of the effectiveness of an
            agency’s information security policies, procedures, and practices. Testing of the
            management, operational, and technical controls for each system identified in the
            agency’s inventory should be performed on a risk-based frequency, but not less
            than annually. Each system must also undergo a periodic C&A to ensure that
            security controls are commensurate with the risk and magnitude of the harm
            resulting from unauthorized access, use, disclosure, disruption, modification, or
            destruction of information contained in the system. A C&A should be completed
            before a system is initially placed into operation and every three years thereafter
            or if the system undergoes a significant change. OMB’s annual FISMA reporting
            questions require the agency IG to provide a qualitative assessment of the
            agency’s C&A process, including adherence to existing policy guidance and
            standards.

      Progress to Date:
            The Board’s information security program requires the C&A of a system to
            include a security assessment. The security assessment is to be performed by an
            independent certification agent and provide assurance that controls are
            implemented correctly, working as intended, and producing the desired results.
                                           12 of 22
                                                                           APPENDIX 1


       Consistent with our 2008 FISMA audit, all Board systems and GSSs have
       undergone the Board’s C&A process. The ISO continues to conduct security
       assessments on a three-year cycle, with all systems having annual testing.

       In our 2008 FISMA audit report, we recommended that the CIO ensure that
       security assessments include necessary and sufficient independent testing to
       support the authorization to operate and provide the authorizing official and the
       Board assurance that information security controls for these systems are
       implemented correctly, working as intended, and producing the desired results.
       During the past year, the CIO allocated additional resources to increase staff in
       the IT Security Compliance unit that is responsible for independently conducting
       security assessments and developed a new testing approach for the 2009 review
       cycle. The security assessment test steps are based on the controls included in
       NIST SP 800-53, and each security control includes a corresponding testing
       approach from NIST SP 800-53A, Guide for Assessing the Security Controls in
       Federal Information Systems. The ISO has also redesigned the certification
       assessment report to provide system owners more detailed information about the
       assessment process and control deficiencies.

       As part of our review of the Board’s C&A process, we reviewed the security
       assessments for two major applications that had all controls reviewed, one major
       application that had a subset of controls reviewed, two GSSs that each had a
       subset of controls reviewed, plus a component of the IT GSS that had all controls
       reviewed. Our review found that the ISO has made progress to ensure security
       assessments include independent testing. The security assessments we reviewed
       independently validated controls related to access control and configuration
       management to ensure the control has been implemented correctly, working as
       intended, and producing the desired results. As such, we believe sufficient
       corrective actions have been taken to close our 2008 recommendation.

Work To Be Done:
     Under the Board’s current approach, an assessment conducted for a C&A will
     include all controls being tested, and then a subset of controls will be tested
     during the intervening years. Testing plans have been tailored for GSSs, major
     applications, bundled systems, and non-bundled systems. The IT GSS is
     composed of eighteen components; each year one-third of the components will
     have all controls reviewed.

       Assessments for major applications include reviewing system level management,
       operational, and technical controls as documented in the system security plans and
       control baselines. Evaluations of the common controls provided by the GSS on
       which the systems rely are conducted separately. This may lead to security gaps
       when a control is identified as missing or deficient during an assessment of the
       GSS but not communicated to the system owner who is relying on the control
       being provided by the GSS. In addition, upgrades to GSS components may affect



                                    13 of 22
                                                                                   APPENDIX 1


             the security of the systems that rely on the GSS. These factors should be
             considered as the Board continues to implement its revised testing process.

             In addition, the Board’s process of testing one-third of the IT GSS components
             each year limits the controls tested each year. Although we understand the
             complexity of reviewing the IT GSS, some controls are so important to the
             Board’s information security that they may need to be reviewed annually. NIST
             SP 800-53 recommends that those security controls that are volatile or critical to
             protecting the information system be assessed at least annually. When reviewing
             a subset of controls for a major application, Board officials stated that some vital
             controls will be tested annually. We believe the CIO should consider reviewing
             certain controls within the IT GSS annually. This would also eliminate any
             security gaps from reviewing controls over a three-year period.

             Recommendation 2: We recommend that the CIO test select critical controls
                               within the IT GSS annually.


Planning, Implementing, Evaluating, and Documenting Remedial Actions

      Requirement:
            FISMA requires agencies to establish a process for addressing any deficiencies in
            information security policies, procedures, and practices. To implement this
            requirement, OMB has issued guidance requiring agencies to prepare and submit
            POA&Ms for all programs and systems where an information technology security
            weakness has been found. OMB’s annual FISMA reporting questions inquire
            whether an agencywide POA&M policy has been established; a POA&M process
            has been implemented and managed to incorporate all known IT security
            weaknesses; and once identified, the weaknesses are prioritized and tracked,
            effective remediation plans are established for correcting the weaknesses,
            estimated dates for remediation are reasonable, and system owners are reporting
            progress on weaknesses to the agency CIO at least quarterly. In addition, OMB
            questions ask if the CIO centrally tracks, maintains, and independently reviews
            and validates POA&M activities on at least a quarterly basis.

      Progress to Date:
            An agency-wide POA&M process has been established for many years at the
            Board to identify and address deficiencies in information security policies,
            procedures, and practices. The ISO developed this program based on OMB
            guidance issued as early as 2001. The ISO has developed POA&M reporting
            guidance for divisions and offices to comply with the OMB guidance. As
            indicated in our 2008 FISMA report, an IT automated issue tracking enhancement
            that complements the existing manual tracking of division POA&M items was
            implemented by the ISO. Our review of quarterly POA&Ms determined that the
            POA&Ms continue to identify the OIG security control review recommendations;
            IT security issues identified by other Board activities, such as the Board’s annual

                                           14 of 22
                                                                            APPENDIX 1


       financial statement audits; as well as planned IT security enhancements for Board
       divisions and offices. The ISO compiles quarterly performance statistics and
       reviews the agency POA&M and the performance reports with the CIO.

Work To Be Done:
     The ISO has adopted the POA&M reporting format provided by OMB, which
     tracks the weaknesses, point of contact, scheduled completion date, milestone or
     corrective action to be accomplished, status changes for the corrective action, and
     how the weakness was identified. Divisions and offices have followed this format
     for many years; however, our security control reviews and follow-up efforts on
     outstanding IT security recommendations continue to identify where POA&M
     items have been designated as completed and removed from the POA&M, but
     upon further audit analysis it was determined that such items were only partially
     or not effectively remediated. We also noted this concern in our 2008 FISMA
     audit report. These occurrences translate into weaknesses that can continue to
     exist for years or at a minimum until the next system review. Also, our 2009
     analysis identified where a risk assessment performed for a bundled system listed
     IT weaknesses that should have been placed on the division POA&M, but were
     not addressed and, accordingly, continue to represent some level of exposure.

       Additionally, in our opinion, in many instances weaknesses that should have a
       quicker remediation timeframe or higher prioritization (notwithstanding resource
       limitations) remain on POA&Ms for an extended period, which translates into
       extended exposure for Board systems. The ISO maintains a repository for
       POA&Ms and reviews issues quarterly with the CIO. However, the primary
       responsibility for POA&M monitoring is placed with the division Information
       Security Representatives, and there is no formal coordinated effort for the division
       representatives to meet with the ISO to discuss their outstanding POA&M items
       and remediation plans and timeframes.

       The POA&M process is one of the key, necessary tools to accomplishing the
       FISMA and OMB objective of improved security. Substantial time, effort, and
       resources are expended to perform reviews of agency systems at many levels and
       by various groups to identify needed improvements. The ISO has recently issued
       POA&M guidance that, once implemented, requires the ISO to test closed issues
       to certify they have been properly addressed. The ISO testing can be
       accomplished by either direct validation with the divisions and offices, or by
       working with the division representatives who are responsible for addressing the
       weaknesses.

       Recommendation 3: We recommend that the CIO independently verify that
                         appropriate corrective action has been implemented before
                         items are removed from the Board’s POA&M.




                                     15 of 22
                                                                                   APPENDIX 1


Security Awareness Training and Training Personnel with Significant Security
Responsibilities

      Requirement:
            FISMA requires that an agency’s information security program include security
            awareness training to inform all personnel, including contractors and other users
            of information systems that support the agency’s operations and assets, of the
            information security risks associated with their activities, as well as their
            responsibilities for complying with agency policies and procedures. FISMA also
            requires that the CIO train and oversee personnel with significant responsibilities
            for information security. OMB’s annual FISMA reporting questions inquire
            whether (1) agencies have developed a process for identifying all general users,
            contractors, and system owners/employees who have log-in privileges and (2) IT
            awareness training has been provided to all such users with log-in privileges. In
            addition, agency employees with significant security responsibilities are to receive
            specialized training.

      Progress to Date:
            The Board continues to provide security awareness training through an interactive
            computer-based system. All Board employees, contractors, and interns are
            required to complete the training. In addition to the standard mandatory security
            awareness training, the ISO provides additional awareness training modules and
            quizzes. Also, IT established a security awareness intranet page that contains
            complementary security awareness information, such as security articles issued
            throughout the year, password tips, prohibited system usage information,
            document information classifications, and other important security awareness
            material.

             The ISO continues to track divisional security training information for Board
             personnel with significant information system security responsibilities. In
             addition, IT security staff offers special training to system owners, developers,
             managers and other senior officials responsible for making decisions regarding
             information systems. This special training covers FISMA compliance
             requirements and Board-specific requirements for system documentation,
             procedures, and implementation of security controls.

      Work To Be Done:
           The Board has made significant improvements in the quality, tracking, and
           monitoring of its security awareness training program. The training program is
           geared towards helping the end users who are faced with security vulnerability
           scenarios in day-to-day use of the Board’s IT resources. We recognize the
           Board’s additional FISMA compliance training offered to staff and managers
           responsible for system-related decisions; however, this training is optional. We
           consider this special FISMA compliance training important to strengthen and
           address FISMA-related issues and potential changes in the Board’s Information
           Security Program. Further, our security control reviews continue to identify

                                           16 of 22
                                                                                   APPENDIX 1


             deficiencies. We believe that the CIO should consider making appropriate
             portions of the FISMA training program mandatory. Making such training
             mandatory can assist in increasing awareness and reinforce overall responsibilities
             for system security.

             Recommendation 4: We recommend that the CIO provide mandatory specific
                               FISMA training for selected staff with FISMA
                               responsibilities.


Detecting, Reporting, and Responding to Security Incidents

      Requirement:
            FISMA requires agencies to develop procedures for detecting, reporting, and
            responding to security incidents. The procedures should include steps to mitigate
            risks from security incidents before substantial damage is done and to notify and
            consult with the United States Computer Emergency Readiness Team (US-
            CERT), appropriate law enforcement agencies, and relevant IGs. US-CERT has
            also established requirements for incident reporting, which include establishing
            priority levels for categories of incidents and timeframes for reporting each
            priority level. OMB’s annual FISMA reporting questions require the agency to
            report how often the agency complies with documented policies and procedures
            for identifying and reporting incidents internally; for timely reporting of incidents
            to US CERT; and for reporting to law enforcement agencies.

      Progress to Date:
            To assist Board staff in understanding their responsibilities related to security
            incidents, the ISO has developed policy and procedures to inform employees of
            their responsibilities for reporting incidents. During the past year, the ISO
            updated the Information Security Incident Handling Guide to include a Device
            and Document Loss Notification Report and developed a Media Sanitization and
            Disposal Policy and an International Travel Policy for Mobile Devices.

      Work To Be Done:
           To reinforce employees’ responsibilities, the ISO continues to post articles on this
           topic on the Board’s website as part of security awareness training. We will
           continue, as part of our ongoing FISMA-related audit work, to review how the
           Board handles information security incidents to ensure that incidents at the Board
           and the Reserve Banks continue to be reported to US-CERT pursuant to the
           relevant requirements.




                                           17 of 22
                                                                                 APPENDIX 1


Continuity of Operations Plans and Procedures

      Requirement:
            FISMA requires that agency information security programs include plans and
            procedures to ensure continuity of operations for information systems that support
            the agency’s operations and assets. OMB’s annual FISMA reporting questions
            require agencies to identify what systems in their inventories have contingency
            plan testing.

      Progress to Date:
            During the past year, the Board conducted semiannual contingency tests.
            Divisions participate in tests, and the ISO uses the Board’s application inventory
            to track the systems that have been tested. During this FISMA reporting period,
            the Board continued to update equipment for its contingency site.

             In addition, IT reported it successfully tested the Board’s new backup mainframe
             and disk replication services with the recently expanded bandwidth to the
             contingency facility. With the new technology in place, IT was able to restore
             mainframe services within one hour and provide "up-to-the-minute" data from the
             replicated disk services.

      Work To Be Done:
           As stated in our 2008 FISMA audit report, although not a requirement of SP 800-
           53 for moderate rated systems, adequate capacity is necessary for information
           processing, telecommunications, and environmental support during crisis
           situations. The upgrade in the amount of bandwidth mentioned above should be
           beneficial with regard to capacity planning. We will continue to monitor the
           Board’s contingency processes and procedures as part of our ongoing FISMA
           work.




                                          18 of 22
                                                                                  APPENDIX 2



                         BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                                DIVISION OF INFORMATION TECHNOLOGY




DATE:        November 12, 2009
TO:          Ms. Elizabeth A. Coleman
FROM:        Ms. Maureen Hannan /signed/
SUBJECT:     Comments on the Office of Inspector General’s 2009 Review of the Board’s
             Information Security Program


        Thank you for the opportunity to comment on the Office of the Inspector General’s
(OIG’s) review of the Board’s information security program. We are pleased that your
assessment continues to recognize that the Board operates a comprehensive and effective
information security program. We generally agree with the recommendations contained in this
year’s report and concur that the recommendations are primarily focused on enhancement
opportunities. As part of our continual improvement efforts, we already have plans for
additional program enhancements over the next two years that address most of the key
improvement opportunities highlighted by your report. Provided below is a more detailed
response to each of the recommendations contained in your report.

2008 Recommendation

1.     The OIG’s 2008 FISMA audit report contained a recommendation that the CIO ensure
      that risk assessments are adequately identifying, evaluating, and documenting the level
      of risk to information systems based on potential threats, vulnerabilities, and currently
      implemented or planned controls, to determine whether additional controls are needed.
      This recommendation is not being closed pending additional corrective action.

      The CIO generally agrees with this recommendation. In response to the 2008
      recommendation and feedback from the OIG staff, a supplemental process was instituted to
      ensure that system owners perform a comprehensive risk assessment. This effort focused on
      ensuring that assessments take into consideration whether additional controls are required
      beyond the mandatory controls prescribed in the minimum control baseline. All Major
      Applications, stand alone Minor Applications or General Support System (GSS) subsystems
      which fall under the Board Information Security Program with a Moderate or High rating
      were required to complete this supplemental risk assessment process. The CIO reviewed the
      supplemental risk assessment process with office and division directors. Information
      Security Committee members were actively involved in the development of the supplemental

                                             19 of 22
                                                                                  APPENDIX 2


   risk assessment process and the new process was highlighted during the annual FISMA
   training. All system owners completed the supplemental process and results were validated
   during this year’s FISMA testing performed by the ISO.

   In addition to the supplemental guidance, the Information Security unit continues to evaluate
   new guidance from the National Institute of Standards and Technology (i.e. Special
   Publication 800-53 Revision 3, Special Publication 800-37, Special Publication 800-39, and
   Special Publication 800-30) and has formulated initial plans to enhance existing risk
   assessment processes. The most recent draft of 800-37: Guide for Security Authorization of
   Federal Information Systems: A Security Lifecycle Approach, was issued in April 2008 and
   introduced the concept of a Risk Executive Function and need to aggregate system risk
   assessments into a functional level assessment. The final version of 800-37 is scheduled for
   release in December 2009. Agencies are given one year to comply with the new guidance
   once it is finalized. Moreover, NIST Special Publication 800-39: Managing Risk from
   Information Systems: An Organizational Perspective, which provides guidance for building
   an organization wide risk management framework, is currently in draft and is scheduled to be
   finalized in December 2009. Additionally, Special Publication 800-30: Risk Management
   Guide for Information Technology Systems, which addresses performing risk assessments at
   the information system level, is currently being rewritten and the first public draft is
   scheduled to be released in December 2009. Special Publication 800-30 will likely not be
   finalized until December 2010.

   The Information Security Officer is currently working with the Information Steering
   Committee to determine how best to address new requirements introduced by NIST in late
   2009 and will work with the system owners to enhance the risk assessment process to better
   define business risks. The ISO also intends to implement a Risk and Compliance software
   package which is being considered as a standard by Reserve Banks. This initiative will help
   staff more effectively develop and maintain security plans, track FISMA and SOX testing
   results, and automate POA&M processes. This automated solution will also help system
   owners monitor the state of their systems and can simplify the risk assessment process. The
   conversion to the new Risk and Compliance system will take place in phases and will focus
   on GSS elements during 2010 and applications security plans in late 2010 and into the first
   half of 2011.

2009 Recommendations

1. We recommend that the CIO ensure all systems have updated security plans that
   include all requirements, as part of implementing the new risk assessment process.




                                           20 of 22
                                                                                    APPENDIX 2


   The CIO generally agrees with this recommendation. GSS and system security plans are
   typically well maintained, but can become dated when GSS subsystems are updated due to a
   new software release or a configuration change. Such changes, however, do not typically
   have a material impact on the actual security posture of an application. Security plans are
   updated at least annually or any time that a major change takes place. The new Risk and
   Compliance system permits inheritance of controls between systems which is expected to
   reduce the duplicative impact of changes. Plans for implementing the new Risk and
   Compliance software are underway as previously described. The ISO will work closely with
   system owners to ensure that they update the technical details in their plans as they convert to
   the new Risk and Compliance system.

2. We recommend that the CIO test select critical controls within the IT GSS annually.

   The CIO agrees with this recommendation. Presently, several GSS subsystems are tested
   quarterly as part of the SOX compliance program. In addition to testing one-third of the GSS
   subsystems annually, any subsystem that undergoes a significant change is re-tested. The
   ISO will also coordinate with the GSS system owners to identify key controls for GSS
   subsystems and will institute testing procedures to ensure that these key controls are tested at
   least annually.

3. We recommend that the CIO independently verify that appropriate corrective action
   has been implemented before items are removed from the Board’s POA&M.

   The CIO agrees with this recommendation. The ISO already implemented a quarterly testing
   process at the start of the fourth quarter to validate items removed from the POA&M during
   the previous quarter.

4. We recommend that the CIO provide mandatory specific FISMA training for selected
   staff with FISMA responsibilities.

   The CIO generally agrees with this recommendation. The ISO has implemented new
   employee orientation training, annual employee awareness training, ad hoc focused training
   to address specific security issues or new policies, and annual FISMA training. The ISO also
   works closely with the ISC members to ensure that system owners receive annual training
   regarding the Board’s security program and their specific roles and responsibilities. The ISO
   will reassess the current training process for system owners and will either continue to work
   with the ISC to ensure that all system owners receive the required training or will create a
   new training module to supplement the current system owner training.




                                            21 of 22
                                                                               APPENDIX 3


Principal Contributors to the Report
Robert McMillon, Auditor-in-Charge

Richard Allen, Senior IT Auditor

Satynarayana-Setty Sriram, IT Auditor

Peter Sheridan, Project Manager

Andrew Patchan, Jr., Assistant Inspector General for Audits and Attestations




                                            22 of 22
